  September 11, 2002




Acquisition
Effect of the Raytheon Defense
Business Acquisitions on Pension
Plans and DoD-Funded Pension
Assets
(D-2002-145)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAS                   Cost Accounting Standards
CIPR                  Contractor Insurance/Pension Review
DCAA                  Defense Contract Audit Agency
DCE                   Defense Corporate Executive
DCMA                  Defense Contract Management Agency
ERISA                 Employee Retirement Income Security Act
FAS                   Financial Accounting Standard
GD                    General Dynamics
HAC                   Hughes Aircraft Company
HDC                   Hughes Defense Company
HEC                   Hughes Electronics Corporation
SERP                  Supplemental Executive Retirement Plan
TI                    Texas Instruments
         Office of the Inspector General of the Department of Defense
Report No. D-2002-145                                                September 9, 2002
  (Project No. D2001PT-0060)

         Effect of the Raytheon Defense Business Acquisitions on
             Pension Plans and DoD-Funded Pension Assets

                               Executive Summary

Who Should Read This Report and Why? DoD and private sector contracting,
accounting, and audit officials who deal with Defense contractor business combinations,
divestitures, and pensions, should be interested in this report.

Background. This report is a review of the effect of the Raytheon Company acquisitions
of E-Systems, Inc., Texas Instruments Defense Systems and Electronics, and Hughes
Defense Company on pension plans and DoD-funded pension assets. The acquisitions
resulted in $6.9 billion of pension assets being transferred to the Raytheon Company.

Results. Adequate contractor records that would ensure the Government received proper
credit for its share of contributed pension assets under several of the pension plans
transferred to the Raytheon Company did not exist. The Government is at risk of either
overpaying or not receiving proper credit for certain contributions made to the pension
funds. The Defense Contract Management Agency (DCMA) should request that the
Raytheon Company and Raytheon’s certified public accounting firm correct their
respective financial reports for the E-Systems Salaried Plan to report the unauthorized
withdrawal of $7.9 million. The Defense Contract Audit Agency (DCAA) should also
review and verify the E-Systems Supplemental Executive Retirement Plan asset balances
and record the balances in the E-Systems permanent audit file; review and verify the
Texas Instruments pension plan asset balances and record the balances in the Texas
Instruments permanent audit file; determine the cost impact to the Government that
Hughes caused by not properly segmenting the pension assets transferred as a result of
the General Dynamics acquisition in 1992; determine the cost impact to the Government
that Hughes caused by not properly segmenting the newly created Direct TV segment
from the Government segments in 1994; and revise the pension audit guidance program
to require that periodic reviews of Cost Accounting Standard 413.50(c)(7) asset balances
are performed. (See the Finding section of the report for the detailed recommendations.)

Management Comments. The Director, DCAA and the Director, DCMA both
concurred with the recommendations; therefore, no further comments are
required. DCMA will request the Raytheon Company to amend their Form 5500 for
1998 and 1999, and have their accounting firm amend the pension plan’s financial
statements for 1998 and 1999 to reflect the $7.9 million withdrawal and repayments.
Additionally, DCMA voluntarily plans to amend the Contractor Insurance and Pension
Review process to emphasize segment accounting of pension assets in future reports.
DCAA agreed to review and verify the E-Systems and Texas Instrument’s pension plan
asset balances. DCAA will also record the Cost Accounting Standard 413.50(c)(7) asset
balances in the respective permanent audit files. In addition, DCAA will address the
issue of not properly segmenting pension assets from the Hughes acquisition of General
Dynamics and the creation of Direct TV as part of the DCAA review of the Hughes sale
of Government segments to the Boeing Company. Further, DCAA will revise their audit
plans to add the year-end pension asset balances to the list of historical pension cost
information required to be maintained in the permanent file and revise the joint DCMA
and DCAA pension review programs to require that periodic reviews of the Cost
Accounting Standard 413.50(c)(7) asset balances be performed.




                                          ii
Table of Contents

Executive Summary                                       i

Background                                              1

Objectives                                              3

Finding
     Accounting for Government-Funded Pension Assets    4

Appendixes
     A. Scope and Methodology                          14
     B. Prior Coverage                                 15
     C. Report Distribution                            16

Management Comments
     Defense Contract Management Agency                19
     Defense Contract Audit Agency                     21
Background
    Pension accounting is unique in that the majority of pension accounting
    transactions are not entered in the financial accounting records of a public
    corporation. Financial Accounting Standard (FAS) No. 87, “Employers
    Accounting for Pensions,” controls the way corporations determine and record
    pension information for financial accounting purposes. The Employee
    Retirement Income Security Act (ERISA) of 1974, as amended, provides
    regulations for pension accounting on a plan basis. The annual FAS 87 pension
    expense recorded on a corporate income and expense statement would rarely
    correspond to the annual pension funding that ERISA requires. The FAS 87
    balance sheet accounting also differs from the balance sheet accounting
    maintained under ERISA.

    Generally, corporations that negotiate contracts of $50 million or more with the
    Government are also required to comply with Government contract accounting
    rules under the Cost Accounting Standards (CAS). This includes rules for
    pension accounting under CAS 412, “Composition and Measurement of Pension
    Cost,” and CAS 413, “Adjustment and Allocation of Pension Cost.” The pension
    accounting rules under CAS 412 and CAS 413 closely parallel ERISA pension
    accounting. A major difference between CAS and ERISA is that CAS provides
    for segment accounting, which is more detailed if a pension plan has several
    segments. CAS 413, in addition to being a cost accounting standard, is also an
    asset accountability standard under CAS 413-50(c)(7).

    Another major difference between CAS and ERISA is the method for allocating
    pension plan assets when a plan is divided as the result of a business divestiture.
    Under ERISA, all of the plan assets are available to cover all of the plan
    liabilities, and the assets are substantially allocated in proportion to the liabilities.
    Under CAS, segment pension costs charged to Government contracts become
    segment assets. The segmented assets are designated to cover the segment
    liabilities. An allocation of assets under ERISA is usually different from an asset
    allocation under CAS because of the segment accounting provisions. The
    findings in this evaluation substantially relate to differences between ERISA and
    CAS accounting for pension assets.

    Raytheon Acquisitions. Based in Lexington, Massachusetts, the Raytheon
    Company (Raytheon) is a global technology company that operates in three core
    business segments: Defense and commercial electronics, business aviation and
    special mission aircraft, and engineering and construction. From 1995 through
    1997, Raytheon actively pursued and completed several major acquisitions in the
    Defense electronics business.

    In early 1995, Raytheon merged its Missile Systems Division and Equipment
    Division, creating Raytheon Electronic Systems. In April 1995, Raytheon
    acquired E-Systems for $2.2 billion. E-Systems was a Defense and Government
    electronics company with a specialty in intelligence, reconnaissance, and
    surveillance systems; command and control; specialized aircraft modification; and
    guidance, navigation, control, communications, and data systems.



                                            1
The company acquired the assets of Texas Instruments’ (TI) Defense Systems and
Electronics business in July 1997 for $2.95 billion, adding complementary
businesses and expertise in precision-guided weapons, anti-radiation and strike
missiles, airborne radar, night vision systems, and electronic warfare systems.

In December 1997, Raytheon merged with the Defense operations of Hughes
Electronics, a leading supplier of advanced Defense electronics systems and
services. The $9.5 billion transaction with Hughes is the largest in Raytheon’s
history.

With the completion of the Raytheon/Hughes merger, Raytheon announced the
formation of its new, consolidated Defense business--Raytheon Systems
Company--bringing together the combined capabilities of Raytheon Electronic
Systems, Raytheon E-Systems, Raytheon TI Systems, and Hughes Aircraft
Company (HAC). The Washington, D.C., based Raytheon is organized into five
major business segments that bring together the resources of the company in key
product areas. The five business segments are: Defense Systems; Sensors and
Electronic Systems; Command, Control, Communications and Information
Systems; Aircraft Integration Systems; and Training and Services.

Defense Contract Audit Agency. The Defense Contract Audit Agency (DCAA)
performs the contract audits for DoD and provides accounting and financial
advisory services regarding contracts and subcontracts to the DoD Components
responsible for procurement and contract administration.

Defense Contract Management Agency. The Defense Contract Management
Agency (DCMA) performs price/cost analyses, overhead and contractor system
reviews, financial services, property and plant clearance, transportation and
packaging, and termination settlements for DoD. The DCMA also provides
program and technical support by analyzing costs, schedules, and technical
performance of contractor programs and systems.

Contractor Insurance/Pension Review Teams. A Contractor Insurance/Pension
Review (CIPR) is initiated at the request of the Administrative Contracting
Officer. The CIPR team consists of a joint DCAA and DCMA team comprising
DCAA auditors and DCMA insurance/pension specialists.
The CIPR team is responsible for conducting a CIPR, which is a comprehensive
review of a contractor’s insurance program, pension plans, other deferred
compensation plans and related policy, procedures, practices, and costs.

If a business combination (merger) occurs, the CIPR team must determine
whether the contractor has complied with the special segment closing provisions
of CAS 413.50(c)(12). Determination requires an analysis of the contractor’s
calculation of the pension assets and liabilities, and the allocation of the assets
and liabilities to the segments involved in the transaction. The asset and liability
balances determine the basis for measuring the effect of the adjustment on
previously determined pension costs that CAS 413.50(c)(12) requires.




                                      2
    The contractor’s accounting for pension assets and liabilities must comply with
    the measurement and allocability requirements of CAS 412 and CAS 413 and
    must be allocable, reasonable, and allowable as Federal Acquisition Regulation
    Subpart 31.2 provides.

    The CIPR program review steps cover the key aspects of accounting for pension
    assets and liabilities for segment closings, benefit curtailments, and plan
    terminations.


Objectives
    Our objective was to evaluate the effect of the Raytheon acquisition of Hughes,
    Texas Instruments, and E-Systems on the respective pension plans, DoD pension
    costs, and DoD-funded pension assets. We also identified the
    Government-funded pension assets under the individual pension plans by segment
    as of the date of each acquisition, and evaluated the distribution of assets between
    the contractors to determine compliance with CAS 413.




                                         3
           Accounting for Government-Funded
           Pension Assets
           Adequate contractor records did not exist that would ensure the
           Government received proper credit for its share of contributed pension
           assets under several of the pension plans transferred to Raytheon. The
           contractors did not maintain by segment under certain plans the required
           CAS 413.50(c)(7) pension asset accounting records. Additionally, no
           documented evidence existed that DCAA or DCMA performed any
           periodic audits of CAS 413.50(c)(7) pension asset records or maintained
           any records to document the Government’s interest in the contractor
           pension funds. As a result, the Government is at risk of overpaying or not
           receiving proper credit for certain contributions made to the pension
           funds.


Pension Costs
    The measurement, assignment, and allocation of pension cost to a cost accounting
    period is performed by a contractor in accordance with the provisions of
    CAS 412. Generally, pension cost charged to Government contracts during a cost
    accounting period is not paid out as benefits during the performance of a contract.
    Rather, pension cost is accumulated as Government-funded assets in a pension
    trust for future payment of benefits when the employees retire.

    Records. CAS 413.50(c)(7) sets forth the procedure for maintaining accurate
    permanent records of pension cost charged to Government contracts and
    accumulated as Government-funded pension assets. The standard requires that
    after the initial allocation of assets, the contractor shall maintain a record of the
    portion of subsequent contributions, income, benefit payments, and expenses
    attributable to the segment and paid from the assets of the pension plan.
    CAS 413.50(c)(12) covers the procedures that a contractor must follow when a
    segment is sold. The contractor is required to determine the difference between
    the actuarial accrued liability for a segment and the market value of assets
    allocated to a segment. The difference between the market value of assets and the
    actuarial liability for a segment represents an adjustment of previously determined
    pension cost. CAS 413.50(c)(12) further requires that the Government’s share of
    the adjustment amount is based on a percentage of total pension costs assigned
    during a period that is representative of the Government’s participation in the
    pension plan. The percentage should represent the pension costs allocated to all
    of the contracts and subcontracts during the representative period. If a segment
    is closed because of a sale or other transfer of ownership to a successor interest in
    the contracts of the segment and all of the pension plan assets and actuarial
    accrued liabilities pertaining to the closed segment are transferred to the successor
    segment, then no adjustment amount pursuant to CAS 413.50(c)(12) is required.
    If only some of the pension plan assets and actuarial accrued liabilities of the
    closed segment are transferred, then the adjustment amount shall be determined
    based on the pension plan assets and actuarial accrued liabilities remaining with


                                          4
    the contractor. In either case, the effect of the transferred assets and liabilities is
    carried forward and recognized in the accounting for pension cost at the successor
    contractor. The key to compliance with the segment closing requirements is
    continuing maintenance of accurate permanent records of Government pension
    costs by cost accounting period and accumulation of the Government-funded
    pension assets in the pension trust.

    The potential impact on Government-funded pension assets as a result of a
    business combination is significant. A close examination of the transactions is
    critical to ensure appropriate amounts are transferred from seller to buyer and that
    the accounting matches the transactions. If a shortfall occurs in the assets
    transferred from seller to buyer, the Government may have to make up the
    shortfall by paying additional future pension costs. In effect, the Government
    would pay again to cover pension liabilities previously funded because the
    pension assets retained by the seller included Government-funded pension assets
    that should have been transferred. Contractor maintenance of accurate
    CAS 413.50(c)(7) records is imperative so the Government can perform an
    adequate examination and assessment of the transactions.


E-Systems
    In May 1995, Raytheon acquired E-Systems for $2.2 billion. Immediately after
    the purchase, Raytheon established defined benefit pension plans for the newly
    acquired Defense employees and retired Defense employees covered by the
    E-Systems Salaried Plan, HRB Systems Plan, Greenville Plan, Garland Plan, the
    ECI Plan, and the E-Systems Supplemental Executive Retirement Plan (SERP).
    E-Systems transferred pension plan assets totaling $613,209,810 from the
    E-Systems retirement plans to the plans that Raytheon established.

    E-Systems SERP. In 1982, E-Systems established a SERP for corporate officers
    and specified executives. A SERP is a plan designed to provide additional
    retirement income in excess of the maximum benefits established under ERISA
    for qualified plans to highly compensated individuals. Through 1986, the SERP
    was unfunded and E-Systems made benefit payments. In 1987, E-Systems
    established a funded trust and made payments of $26 million to the trust. In 1987,
    an agreement signed between E-Systems and the Government covered the basis
    for Government funding of the E-Systems SERP. From 1987 through 1997, the
    Government-funded SERP costs of $21.8 million. As of May 31, 1995,
    approximately $50.8 million of E-Systems and Government-funded assets were in
    the E-Systems SERP trust. As of August 31, 1999, the assets had appreciated to
    approximately $70.8 million.

    Withdrawal of SERP Assets by Raytheon. In December 1999, Raytheon
    withdrew $42 million from the E-Systems SERP trust and transferred the funds to
    a Raytheon general asset account. Raytheon did not inform the Government of
    the $42 million withdrawal until March 2001 when the Inspector General of the
    Department of Defense initiated through DCAA an inquiry on the SERP funding
    status. Because the SERP funding consisted of both E-Systems contributions and
    pension costs charged to Government contracts, whether sufficient E-Systems


                                           5
contributed assets exist that cover the withdrawal without also withdrawing
Government-funded pension assets is not known.

Analysis of the Raytheon Withdrawal. We were interested in examining the
SERP because it was a funded, nonqualified plan. Nonqualified plans are not
usually funded and are not as closely regulated as ERISA qualified plans. DCAA
requested from Raytheon specific financial data not previously obtained prior to
the start of our review. At the time of the DCAA request for financial data,
Raytheon revealed to DCAA that the company made the $42 million withdrawal
from the trust. The data included incurred cost records that identified all of the
contractor reimbursable Government-funded pension costs for the period of 1987
through 1997, and annual summary financial statements prepared by an
independent actuarial firm for 1987 through 1997. The summary statements were
purported to be from the trust records and did not separately account for the
Government-funded trust assets. Without the CAS 413.50(c)(7) records to
separately account for the Government-funded assets, we were unable to
determine whether the contractor had inappropriately withdrawn assets that were
attributable to the Government.

Defense Contract Audit Agency Follow-up. After the evaluation, DCAA
determined that sufficient E-Systems funded assets were available to cover the
withdrawal without using Government-funded assets. Based on the DCAA
review, no adverse cost impact to the Government was found from the withdrawal
by Raytheon of SERP assets. However, DCAA indicated that a weakness existed
in the contractor’s system of internal controls. Raytheon’s internal controls do
not require prompt notification in writing to the contracting officer when the
contractor withdraws assets from a Government-funded pension plan. DCAA
recommended to Raytheon that internal controls needed improvement. Raytheon
agreed to the recommendation and is taking action to correct the problem.
Additional DCAA review is still required to determine the present value of the
remaining trust assets applicable to Government funding.

Raytheon’s Withdrawal From the E-Systems Salaried Plan. As a result of the
review of the E-Systems SERP, DCAA initiated a review of Raytheon trust fund
withdrawals and discovered that Raytheon had also withdrawn $7.9 million from
the E-Systems Salaried Pension Plan in June 1998 and had repaid the $7.9 million
to the trust fund with interest of $614,593 by September 1999. The additional
payment equates to an approximate 7.7 percent interest rate to cover for the loss
of trust fund investment earning. The DCAA audit report, “Noncompliance with
Federal Acquisition Regulation Clause 52.215-15, Pension Adjustments and
Asset Reversions,” October 2, 2001, covers the impact of the missing assets in
calculating pension costs. DCAA did not take exception to the repayment or to
the amount of interest paid on the withdrawn amount. We were concerned that
removal of the $7.9 million from the cash account caused the conversion of equity
investments into cash to cover benefit payments totaling approximately $3 million
each month. DCAA confirmed that assets were more than sufficient in the
pension fund’s cash account and that no equity or debt instruments with
substantially higher investment yields had to be converted into cash. However,
we still find fault with the Raytheon Financial Reporting for the E-Systems
Salaried Pension Plan. The Form 5500 Report should comply with the reporting
requirements under ERISA and provide the opportunity to compare CAS pension


                                    6
    data furnished to DoD with pension financial information prepared for the
    Internal Revenue Service and the Department of Labor. A review of the
    Raytheon 1998 Form 5500, “Annual Return/Report of Employee Benefit Plan,”
    did not disclose the withdrawal. The Form 5500 for 1999 did not disclose the
    reimbursement to the trust fund. The withdrawal and the repayment were also not
    reported in either the 1998 or the 1999 Annual Financial Reports prepared by
    Raytheon’s certified public accountants. Issuing revised reports should correct
    the omission in reporting.


Texas Instruments
    In July 1997, Raytheon acquired the assets of TI Defense Systems and Electronics
    for $2.95 billion. Raytheon then established a defined benefit plan for the
    transferred TI employees in their Raytheon TI Systems entity. TI in turn
    transferred pension plan assets and actuarial liability attributable to the Defense
    operations from the TI Retirement Plan to the newly established plan. The
    methodology for the transfer of pension plan assets and actuarial liabilities was
    set forth in the Purchase/Sale Agreement between Raytheon and TI. In
    compliance with the agreement, TI transferred pension assets to Raytheon totaling
    $305,102,650 on September 30, 1997, and Raytheon assumed the actuarial
    liabilities associated with employees transferred to Raytheon.

    Prior to the sale in 1997, TI had a single plan that covered both its commercial
    and Defense operations. Beginning in 1985, TI agreed to establish segmented
    pension records for the Defense division in accordance with CAS 413.50(c)(3).
    From 1985 through 1997, the costs for the Defense division were purportedly
    segmented within the independent actuary’s records—CAS 413.50(c)(7) data—in
    compliance with CAS 413.

    Accounting Record Review. We requested that the contractor and the actuary
    provide the CAS 413.50(c)(7) data for 1985 through 1997. Our plan was to use
    the data to determine whether the amount that TI claimed to represent the
    Government-funded pension assets was correct. A properly maintained
    CAS 413.50(c)(7) record would show by year all of the additions and subtractions
    to both the commercial and the Government segmented assets. The segmented
    records would verify that the Government received proper credit for their
    contributions. The TI records for 1994 through 1997, however, showed that the
    commercial and Government funding ratios were actually equal. We wanted to
    find out the reason for the identical funding ratios, especially because the DCMA
    CIPR records identify that substantially higher pension contributions were
    charged from 1985 through 1996 to the Defense segment. According to the CIPR
    records, $225,457,508 in contributions were made on behalf of the TI pension
    plan from 1985 through 1996. The Government contributed 62 percent
    ($139,022,127) of the contributions, whereas the commercial contributions was
    38 percent ($86,435,381).

    The company’s actuary prepared CAS segmented asset records for 1985 through
    1997. Both TI and the actuary confirmed that the records were provided to TI.



                                         7
    However, TI and the actuary claimed that they only retained the segmented
    records for 1994 through 1997.

    A review of available DCAA and DCMA records was conducted but no copies of
    the missing segmented asset records were found. Also, no evidence was available
    in the files that would substantiate whether DCAA performed any audit checks of
    the CAS 413.50(c)(7) records for 1985 through 1996. Further, we did not find
    any evidence of a review of the segmented pension assets in any of the DCMA
    CIPR reports.

    We reviewed all of the available pension financial records from DCAA and
    DCMA to validate the 1994 beginning asset balance and to reconstruct the
    missing records for 1985 through 1993. We were unsuccessful in our attempt to
    reconstruct the missing records. As a result, we are unable to reconcile the
    apparent anomaly between the final asset allocation of $305 million for the
    Defense segment (37 percent of the trust assets) and the total pension cost of
    $139 million (62 percent of the total trust funding for these years) charged to the
    Defense segment for 1985 through 1996. A closer correlation between the
    funding level and the asset allocation should exist. Without a review of the
    missing 1985 through 1993 records, an opinion as to whether the $305 million
    asset transfer was in compliance with CAS 413 cannot be accurately determined.


Hughes
    Raytheon completed its purchase of Hughes Defense Company (HDC), a
    subsidiary of Hughes Electronics Corporation (HEC) in December 1997. HDC
    was made up of segments that primarily performed Defense efforts. Raytheon
    then established defined benefit pension plans for the newly acquired Defense
    employees and retired Defense employees who were previously covered by the
    Hughes Non-Bargaining Retirement Plan and Hughes Bargaining Retirement
    Plan. HEC transferred the pension plan assets and actuarial liabilities attributable
    to the transferred employees and retirees from the Hughes retirement plans to the
    plans Raytheon established. The assets transferred from Hughes to Raytheon
    were valued at $6,053,004,534. The Employee Matters Agreement between
    Raytheon and HEC established the manner and times of the transfer.

    Defense Contract Management Agency Review. The DCMA CIPR Branch
    performed a review of the pension matters between Hughes and Raytheon.
    DCMA concluded that the pension transfers complied with the pension agreement
    and issued a letter to the Defense Corporate Executive (DCE) on March15, 2000,
    recommending that the DCE accept the allocation of assets between Hughes and
    Raytheon. On August 18, 2000, the letter was reissued to incorporate certain
    revisions to the transfer amounts, and again DCMA recommended that the DCE
    accept the transfer as being in compliance with the pension agreement. On
    October 20, 2000, DCMA issued another letter that cancelled and superseded the
    previous letters and identified a need to establish an earlier date for allocation of
    assets and liabilities to segments.




                                          8
Defense Contract Audit Agency Review. On April 14, 2000, DCAA initiated
an audit to determine CAS 413 compliance for the pension transactions that
resulted from the sale of HDC to Raytheon. On July 31, 2001, DCAA issued a
report that concluded the determination of the pension asset transfer by Hughes
was not performed in accordance with the provisions of CAS 413.50(c)(12).
DCAA also determined that Hughes was in noncompliance with
CAS 413.50(c)(5)(i) and 413.50(c)(5)(ii), sections that address allocation of
pension assets to segments. The specific incidents which caused the CAS 413
noncompliances were the Hughes acquisition of the General Dynamics (GD)
Missile Systems on August 22, 1992, and the creation of commercial segments
(for example, Direct TV) subsequent to the pension plans becoming fully funded
in 1992.

Hughes Acquisition of General Dynamics. On August 22, 1992, HEC acquired
the GD Missile Systems. HEC had merged the acquired GD pension plan assets
and liabilities with its plan. The purchase/sale agreement required HEC to retain
the GD pension plan benefits for the former GD employees. The GD plan
differed materially from the HEC plan with a substantially different benefit
formula, no requirement for participant contributions, and a different funding
ratio of assets to liabilities. The HEC plan was contributory; the GD plan was
noncontributory--and the level of benefits materially different. When employees
contribute a share of the pension costs, the employer’s share, that is, pension costs
charged to Government contracts, is less. Those conditions require HEC to
maintain segment accounting for the acquired GD plan.

To be in compliance with CAS 413.50(c)(2) and CAS 413.50(c)(3), segmentation
of the GD pension assets transferred to the Hughes Pension Trust should have
been maintained beginning with the date of acquisition in 1992.

Hughes Startup of Direct TV. The requirement to isolate Direct TV as a
pension segment separate from the Government business entity segments
occurred with creation of Direct TV as a commercial business entity in 1994.
Direct TV is a subsidiary of Hughes that provides satellite television services.
Hughes should have separated Direct TV from any Defense business segment to
comply with CAS 413.50. CAS 413.50(c)(2) requires establishment of a separate
segment when the level of benefits, eligibility for benefits, age distribution, or the
appropriate actuarial assumptions are, in the aggregate, materially different for the
segment than for the average of all segments. In general, actuarial provisions
applicable to a newly created segment are substantially different in every respect
than the provisions applicable to the older established Defense segments. In
addition, the last pension contribution by Hughes to the Hughes Pension Plans
was made in 1992. That means that Direct TV has never made a contribution to
the Hughes Pension Trust to fund the benefits for the Direct TV commercial
employees. The only pension assets assignable to Direct TV would be assets
transferred from other segments to cover the liabilities of any employees
transferred to Direct TV from other business segments. The allocation of pension
assets to Direct TV made in accordance with the provisions of the purchase/sale
agreement complied with ERISA but was not in compliance with CAS 413.
CAS 413 requires identification of the source of the pension assets. In this case,
the source of the pension assets was substantially pension costs charged to
CAS-covered Government contracts.


                                      9
Cost Accounting Standard 413.50(c) Citations. The DCAA Audit Report
No. 4511-2000F19200004, “Report on Noncompliance with CAS 413 Adjustment
and Allocation of Pension Cost,” July 31, 2001, cites the noncompliance with
CAS 413.50(c)(5) and CAS 413.50(c)(12) as it relates to the segmenting of assets
between Hughes and Raytheon in 1997. We agree with the DCAA report.
However, we believe the requirement for Hughes to establish segment pension
asset accounting occurred prior to the acquisition of HDC by Raytheon in 1997.
Hughes was in noncompliance with CAS 413.50(c)(2) and CAS 413.50(c)(3)
when they failed in 1992 to establish a separate pension segment upon acquiring
GD Missile Systems. Hughes was also in noncompliance with CAS 413.50(c)(2)
when they failed to establish in 1994 Direct TV as a pension segment separate
from the Defense segments. The requirement to provide the segment accounting
can be established separate and distinct from the requirements established in 1997
under CAS 413.50(c)(12) by the Raytheon acquisition.

Prior Audit. In June 1996, we issued an Inspector General of the Department of
Defense Report PO-96-012, “Department of Defense Oversight of Defense
Contractor Business Combinations.” The report stated that in 1994, DCAA
reviewed the 1992 pension fund transfer from the GD Missile Systems to the
Hughes Aircraft Company (HAC) and found that the contractor had merged the
acquired GD pension plan assets and liabilities with the HAC plan. The report
recommended that the DCE should request technical assistance to evaluate the
pension fund transfer.

The report states that DCAA had sufficient information to advise the DCE of the
potential CAS 413 noncompliance and to request technical assistance in
calculating the general dollar magnitude of the noncompliance in accordance with
Federal Acquisition Regulation Subpart 30.602-2, “Noncompliance With the CAS
Requirements.” The report further states that the DCAA audit working paper file
contained sufficient information for the auditors to determine whether the pension
plan merger complied with the CAS requirements. HAC planned to retain the GD
pension plan benefits for former GD employees although the GD benefits differed
from the HAC plan. For example, the HAC plan was contributory and the GD
plan was noncontributory. When employees contribute a share of the pension
costs, the employer share of pension costs charged to Government contracts is
less. Those two conditions indicate that the HAC would be required to maintain
segment accounting for the acquired GD plan.

The report recommended that permanent file information from incurred cost
audits should be maintained as a record of the total annual pension costs. As an
example, the permanent file could include sufficient records to determine the total
pension costs incurred each year, the total payroll used to allocate the costs to the
segments, and any other factor used in calculating the allocation of pension costs
to the segments. The records should be maintained to facilitate Government
verification of contractor implementation of CAS 413.50(c)(12).

In October 1996, the DCAA agreed with the report recommendation and included
the requirement to maintain the historical pension cost information in the update
of the DCAA Contract Audit Manual, January 1997.




                                     10
     Segmented Records. Hughes should have maintained, at a minimum, segmented
     records for pension transactions since 1992. If the records had been established
     and audited by DCAA, a non-CAS compliant allocation of Government-funded
     pension assets to commercial segments could have been avoided.


Potential Risk to the Government
     Government Interest in Surplus Assets. DoD has an interest in Government
     contractor pension funds in which assets are funded through pension costs
     charged to CAS-covered Government contracts. The market value and
     percentage of the assets allocable to Government contract segments directly
     impact not only future contracting pension costs but also the amount of any
     adjustments to previously determined pension costs DoD might receive in the
     event of a curtailment of pension benefits, a termination of the pension plan, or
     the closing of a Government segment.

     Effect to the Government. Because the asset balance is an integral part of the
     pension cost computation, the accuracy of Government pension cost calculations
     cannot be determined if all assets are not properly audited and accounted for. Our
     evaluation showed that adequate and audited pension asset accounting records as
     required by CAS 413.50(c)(7) were not always available because the contractors
     did not maintain adequate records. Without the required records, the Government
     cannot accurately determine the value of the Government-funded pension assets
     or the assignment of the assets by segment. Therefore, the Government cannot
     determine the assets in excess of pension liabilities available to offset current or
     future contract pension costs or assets potentially available for recovery in the
     event of a segment closing or pension plan curtailment.


Summary
     One of the major overhead expenses incurred on Government contracts is pension
     cost. Pension costs are unique in that they represent an actuarial estimate for
     providing future retirement benefits for employees who worked on the contracts.
     Unlike other contract costs, retirement benefits may not occur until long after the
     contracts have been closed.

     A lack of adequate records and review for Government-funded pension assets
     presents a high risk to the Government. The acquisition by Raytheon of
     E-Systems, TI, and Hughes resulted in $6,971,316,994 in pension assets being
     transferred to Raytheon. The Government must ensure that the paid-in funds are
     accounted for so that any excess funding is potentially available to cover pension
     costs on future Government contracts. If a contractor transfers employee benefit
     liabilities without all of the related pension fund assets, the transferee has to make
     new contributions to the pension fund. As a result, the Government is at risk of
     overpaying or not receiving proper credit for certain contributions made to the
     pension funds.



                                          11
Recommendations and Management Comments
    1. We recommend that the Director, Defense Contract Management Agency
    request that Raytheon and Raytheon’s certified public accounting firm
    correct the respective financial reports for the E-Systems Salaried Plan to
    report the unauthorized withdrawal of $7.9 million.

    DCMA Comments. DCMA concurred with the recommendation. DCMA will
    request that Raytheon amend their 1998 and 1999 Forms 5500 and have their
    accounting firm amend the pension plan’s financial statements for 1998 and 1999
    to reflect the $7.9 million withdrawal and repayments. Additionally, DCMA
    voluntarily plans to amend their CIPR process and to emphasize that segment
    accounting of pension assets needs to be explicitly addressed in future reports.

    2. We recommend that the Director, Defense Contract Audit Agency:

          a. Review and verify the E-Systems Supplemental Executive
    Retirement Plan asset balances that are available as part of their periodic
    Cost Accounting Standard 413 reviews. The Government’s interest in the
    Cost Accounting Standard 413.50(c)(7) asset balances should be documented
    and made a part of the E-Systems permanent audit file.

          b. Review and verify the Texas Instruments pension plan asset
    balances that are available as part of their periodic Cost Accounting
    Standard 413 reviews. The Government’s interest in the Cost Accounting
    Standard 413.50(c)(7) asset balances should be made a part of the Texas
    Instruments permanent audit file.

           c. Determine the cost impact to the Government with regard to a
    Hughes noncompliance with Cost Accounting Standards 413.50(c)(2) and
    413.50(c)(3) caused by not properly segmenting the pension assets
    transferred as a result of the General Dynamics acquisition in 1992.
           d. Determine the cost impact to the Government with regard to a
    Hughes noncompliance with Cost Accounting Standard 413.50(c)(2) caused
    by not properly segmenting in 1994 the newly created Direct TV segment
    from the Government segments.

           e. Revise the pension audit guidance program to require that periodic
    reviews of the Cost Accounting Standard 413.50(c)(7) asset balances
    maintained by Cost Accounting Standard covered Government contractors
    are performed. Periodic reviews will ensure that the Government’s interest
    in the Cost Accounting Standard 413.50(c)(7) pension plan asset balances are
    documented and made a part of the permanent audit file for each Cost
    Accounting Standard covered Government contractor.

    DCAA Comments. DCAA concurred with the recommendations. DCAA agreed
    to review and verify the E-Systems and TI pension plan asset balances. DCAA
    will also record the CAS 413.50(c)(7) asset balances in the respective permanent
    audit files. DCAA will also address the issue of not properly segmenting pension


                                       12
assets from the Hughes acquisition of GD and the creation of Direct TV as part of
the DCAA review of the Hughes sale of Government segments to the Boeing
Company. Further, DCAA will revise their audit plans to add the year-end
pension asset balances to the list of historical pension cost information required to
be maintained in the permanent file and to revise the joint DCMA and DCAA
pension review programs to require that periodic reviews of the Cost Accounting
Standard 413.50(c)(7) asset balances be performed.




                                     13
Appendix A. Scope and Methodology
   We reviewed the primary salaried and hourly pension plans for Raytheon,
   E-Systems, TI, and Hughes. We also reviewed the segmented pension data
   DCAA auditors and DCMA pension specialists obtained during their oversight of
   contractor pensions. We reviewed data for January 1985 through July 2001.

   At the beginning of our evaluation, we requested contractor pension records
   through DCAA to minimize duplicative requests to the contractors. We reviewed
   records prepared to comply with ERISA reporting requirements. The review
   included the Department of Labor/Internal Revenue Service Form 5500 (Plan
   Annual Report), Schedule B, prepared by the plan’s actuary, and the supporting
   plan financial reports prepared by the contractor’s public accounting firm.

   We performed this evaluation from January 2001 through January 2002 according
   to standards implemented by the Inspector General of the Department of Defense.

   We limited the scope because of the lack of CAS 413.50(c)(7) pension plan asset
   accounting records by segment under certain plans. The required CAS records
   were either never prepared or the contractor’s record retention policy resulted in
   the destruction of records.

   The General Accounting Office has identified several high-risk areas in the DoD.
   This report provides coverage of the Contract Management high-risk area.

   We relied on computer-processed pension data furnished by the Government
   contractors through DCAA in the performance of this evaluation. We accepted
   the Government contractor Accounting System Review performed by DCAA as
   validation of computer processed data.




                                       14
Appendix B. Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense has
     issued two reports that discuss the effects of business combinations on pension
     plans and DoD-funded pension assets. Also within the last 5 years, DCAA has
     issued 5 reports that deal with the Raytheon business combinations in relationship
     to pension plans. Unrestricted Inspector General of the Department of Defense
     reports can be accessed at http://www.dodig.osd.mil/audit/reports.

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2000-126, “Evaluation of Boeing and Rockwell
     Corporation Pension Asset Transfers,” May 19, 2000

     IG DoD Report No. 99-156, “Evaluation of the Effect of the Boeing, Rockwell,
     and McDonnell Douglas Business Combination on Pension Plans and
     DoD-Funded Pension Assets,” May 13, 1999

Defense Contract Audit Agency
     DCAA Report No. 4511-2000F1920004, “Report on Noncompliance with
     CAS 413 Adjustment and Allocation of Pension Cost,” July 31, 2001

     DCAA Report No. 2671-2001A19200016, “Noncompliance with Federal
     Acquisition Regulation Clause 52.215-15 - Pension Adjustments and Asset
     Reversions,” October 2, 2001

     DCAA Report No. 4511-2000F17900001, “Split of the Hughes Electronics
     Pension Plan Assets and Liabilities Due to the Raytheon/Hughes Aircraft
     Company Merger,” December 7, 2000
     DCAA Report No. 4121-2000D17900009-S1, “Supplemental Agreed-Upon
     Procedures,” December 4, 2000

     DCAA Report No. 4121-2000D17900009, “Agreed-Upon Procedures Report,”
     November 2, 2000




                                         15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Industrial Affairs)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer Accounting Policy Directorate
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Inspector General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organizations
Office of Management and Budget
  Office of Federal Procurement Policy
      Executive Secretary Cost Accounting Standards Board
  National Security Programs
      Deputy Associate Director National Security Division




                                            16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
Defense Contract Management Agency
Comments




                    19
20
Defense Contract Audit Agency Comments




                    21
______________________________________________________________________




                                  22
23
______________________________________________________________________




                                  24
Team Members
The Audit Followup and Technical Support Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to the
report are listed below.
David A. Brinkman
Kenneth H. Stavenjord
Ronald R. Meissner
William R. Harshman
Sharon L. Carvalho
